                                                  ~ SECU
                                                 O(i~
                                                 W/{,,~~"\1
                                                     USA
                                                 ~ IIIIII1~~
                                                  "'lvlS"r\IJ'"

                                      SOCIAL         SECURITY
                                       Office of the Inspector General
MEMORANDUM
                                                                                  Re£erTo:   ICN 31270-23-228
           September      27,2001
           Larry    G. Massanari
To:
           Acting    Commissioner
            of Social    Security


           Inspector General


           Management Advisory Report: Review of Service Industry Employer with Wage
Subject:
           Reporting Problems (A-03-00-10022)

           The attached final report presents the results of our review. Our objective was to
           understand possible reasons why employers submit erroneous wage reports. To do
           this, we performed an in-depth case study of an employer who continually submitted
           large numbers of invalid wage reports to the Social Security Administration (SSA).
           Specifically, we (1) determined the causes of this employer's wage reporting errors and
           irregularities and (2) identified steps that SSA has taken to reduce such occurrences.

           Please comment within 60 days from the date of this memorandum on corrective
           actions taken or planned on each recommendation. If you wish to discuss the final
           report, please call me or have your staff contact Steven L. Schaeffer, Assistant
           Inspector General for Audit, at (410) 965-9700.




                                                                  James G. Huse, Jr.

            Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



    REVIEW OF SERVICE INDUSTRY
       EMPLOYER WITH WAGE
       REPORTING PROBLEMS

   September 2001   A-03-00-10022
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
The objective of our review was to understand possible reasons why employers submit
erroneous wage reports. To do this, we performed an in-depth case study of an
employer who continually submitted large numbers of invalid wage reports to the Social
Security Administration (SSA). Specifically, we (1) determined the causes of this
employer’s wage reporting errors and irregularities and (2) identified steps that SSA has
taken to reduce such occurrences.

BACKGROUND
Our September 1999 report, Patterns of Reporting Errors and Irregularities by
100 Employers with the Most Suspended Wage Items (A-03-98-31009), discussed the
100 employers with the most suspended wage reports over a 4-year period, Tax Years
(TY) 1993 through 1996. A wage report is suspended (that is, not posted to an
individual's earnings record) when the name/Social Security number (SSN) information
in the report does not match the information in SSA’s systems. The review showed that
84 of the 100 employers experienced increases in the number of suspended Wage and
Tax Statements (Form W-2) for their employees, including 28 employers with at least a
100-percent increase. These employers also exhibited patterns of wage reporting
irregularities, such as large numbers of SSNs that SSA never issued or the same
address for many of their employees. From the list of 100 employers, we selected
1 employer who exhibited above average growth in the number of suspended items
over the 4-year period. After discussing the objective of our review, this employer
agreed to meet with us and discuss its operations.

The Earnings Suspense File (ESF) contained over 227 million W-2s, and $333 billion in
wages accrued between TYs 1937 and 1999 that could not be matched to individuals'
earnings records. During TY 1999 alone, the ESF grew by 8.4 million W-2s and
$41.6 billion in wages. Suspended wages can affect an individual’s eligibility for
retirement and disability benefits. SSA has numerous efforts under way to reduce the
ESF’s size and growth, such as updated earnings system edit routines, letters to
employers and employees to correct invalid information, and various pilots. SSA issued
an ESF Tactical Plan in 1999 that includes 10 projects designed to lower the ESF’s
growth by over 3 million items, annually, and additional projects to reduce its overall
size by over 36 million items on a one-time basis.

During our review, we met with responsible company officials and reviewed their
(1) hiring and wage reporting policies and procedures and (2) internal controls designed
to prevent suspended items. We analyzed the employer’s suspended wage reports for
TYs 1997 and 1998 to identify reporting irregularities and errors. We also met with
SSA’s Employer Services Liaison Officers (ESLO) who assisted employers in improving

Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)            i
their wage reporting submissions; an SSA field office representative in Chicago who is
familiar with this employer; and Immigration and Naturalization Service (INS) staff who
assisted us in verifying employee documents.

RESULTS OF REVIEW
We identified several factors that contributed to the volume of this employer’s
suspended wages: (1) the transient nature of the employer’s workforce; (2) the use of
invalid documents presented by workers when they were hired; (3) the employer’s
flexible hiring policy and weak internal controls; and (4) the employer's failure to use
available SSA programs to verify employee documents. While the employer has taken
steps to correct some of its internal business practices, we found the employer was not
familiar with SSA's verification programs that could have prevented significant wages
from entering the ESF.

TRANSIENT WORKFORCE AND INVALID DOCUMENTS
CONTRIBUTED TO SUSPENDED WAGES

The employer selected for this case study is a temporary labor service provider who
relies heavily on a low-wage, transient workforce. In TY 1998, the employer reported
over 17,400 W-2s and about $30 million in wages related primarily to temporary
workers. According to the employer, over 86 percent of the employees who received a
W-2 in TY 1997 did not work for the company in TY 1998. Between TYs 1993 and
1998, the employer experienced a 370-percent increase in the number of wage reports
posted to the ESF. When we analyzed the suspended wage reports submitted to SSA
from TYs 1996 to 1998, we found that approximately 96 percent of the suspended items
indicated the possible use of invalid documents by employees. In our review of
employee files for TY 1997, we also found evidence of invalid SSA and INS documents.
The combination of a transient workforce and invalid documents contributed to a high
volume of erroneous wage data for this employer.

BUSINESS PRACTICES NEEDED STRENGTHENING
TO REDUCE SUSPENDED WAGES

We identified three business practices that contributed to the volume of suspended
wages: (1) a flexible hiring policy that allowed new hires 3 days to bring in
documentation; (2) insufficient internal controls that resulted in the employer’s failure to
report all available SSNs to SSA; and (3) lack of verification of documents submitted by
new hires. For example, we estimate that up to 30 percent of the employer’s
suspended wage items in 1997 were the result of the 3-day grace period that allowed
new hires to work for only a few days, even though they failed to provide a valid SSN.
We also found an internal control weakness where the correct SSNs were recorded in
the personnel folders but were reported to SSA as zeros. Finally, new employees
sometimes submitted invalid documents when they were hired and the employer did not
attempt to verify the validity of the names and SSNs.


Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)           ii
The employer told us it had already taken steps to minimize these problems by
eliminating the grace period for new hires and implementing an internal control to
ensure that all available SSNs are reported to SSA. Although the employer continued
to request that new hires provide identity and work authorization documents, as of the
end of our audit fieldwork, the employer’s staff had not taken any steps to verify the
accuracy of the names/SSNs of new hires.

SSA’S PROGRAMS COULD PREVENT SIGNIFICANT
WAGES FROM ENTERING THE SUSPENSE FILE

To assist employers in filing accurate wage reports, SSA provides various programs,
such as the Employee Verification Service (EVS). EVS allows employers to detect
invalid names/SSNs reported by new employees by comparing the reported information
to SSA's records. We found our profiled employer was not familiar with EVS, even
though the employer’s use of EVS could have prevented as much as 76 percent of
TY 1997 wages from entering the ESF. In addition, the employer was not aware of
other services available through the ESLOs or the availability of wage reporting
information on the Internet.

SSA’s ESF Tactical Plan also provides additional projects to assist employers with
invalid wage reports. For example, one project already underway calls for SSA to
“Conduct Outreach Efforts with ‘Problem’ Industries and States in Collaboration with the
Immigration and Naturalization Service (INS)." SSA is also evaluating the results of
name/SSN verification pilots with the INS and the Office of Child Support Enforcement
(OCSE). Both pilots are expected to reduce the turnaround time for SSA to report
invalid name/SSN data back to large employers. As of March 2001, the results of the
OCSE pilot were under evaluation, while the INS pilot is scheduled for completion in
November 2001.

SSA has delayed another project to expand the current EVS to include on-line
employee verification for up to 500 names/SSNs. SSA has estimated this EVS project
has the potential to prevent 200,000 items from going into the ESF, annually. In the
past, SSA reported that it can cost as much as $300 to remove an item from the ESF.
However, SSA staff has advised us that this figure exceeds the current costs to
reinstate a wage item. SSA is calculating a new figure. Assuming SSA would be able
to reinstate all 200,000 of these wage items, and estimating that the current cost to
reinstate a wage item is only 10 percent of SSA's earlier estimate (or $30 per item),
OEVS has the potential to reduce administrative costs by approximately $6 million,
annually. Although SSA planned to have this project in place by August 2000, as of
March 2001, the project’s release was still awaiting administrative decision.




Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)         iii
CONCLUSIONS AND RECOMMENDATIONS
The employer in our review faces both internal and external factors that are the major
causes for the size and growth of its suspended wages. Although the employer had
taken several steps to improve its internal business practices, the employer will have
more difficulty addressing its dependence on a transient workforce. For example, the
employer continued to experience problems in preventing the submission of invalid
documents by employees and, hence, the number of suspended wage items that
resulted from these documents. Nonetheless, we believe this employer’s suspended
wages resulting from invalid documents could have been significantly reduced if the
employer had been better informed and encouraged by SSA to take full advantage of
the wage reporting services that are available. We also see potential benefits being
generated by SSA’s pilots with INS and OCSE, which may help SSA reduce the amount
of bad wage data submitted by employers.

We have already made a number of recommendations in prior reports related to
employer bad wage reporting. For example, we have recommended (1) mandatory use
of EVS by those employers who continue to submit large numbers of invalid wage
reports, (2) preparation of a legislative proposal giving employers the right to view SSN
cards, and (3) the enforcement of the Internal Revenue Service sanctions against
employers who continually submit erroneous wage reports. As a result of our work with
this profiled employer, we make the following additional recommendations to SSA to
improve oversight of employers with large numbers of suspended wage items and
provide them with sufficient tools to detect erroneous data:

•	 Until the use of EVS is mandatory, ensure ESLOs increase awareness of EVS
   among those employers who have submitted large numbers of suspended wage
   reports, including those identified by SSA’s Office of the Inspector General in its
   100 Employers report.

•	 Prioritize the implementation of the ESF tactical plan proposal to provide
   on-line EVS (OEVS) to employers, which will assist employers in identifying invalid
   documents submitted by new hires while also preventing 200,000 wage items from
   going into the ESF and reducing overall ESF administrative costs by approximately
   $6 million, annually.

•	 Continue to pursue and/or expand upon viable options to the current EVS
   procedures, such as the INS and OCSE pilots, to broaden employer participation in
   SSA’s name/SSN verification projects.

Agency Comments
SSA took exception to the statements and recommendations made in the report
because they were based on the examination of a single employer. SSA believes the
most significant cause for wage reporting errors is the transient nature of the employers'


Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)         iv
workforce and noncompliance on the part of employers. As a result, SSA is not
comfortable in predicting a significant reduction of items in the ESF.

SSA concurred with Recommendations 1 and 3. However, SSA did not concur with
Recommendation 2. SSA stated that OEVS has already been put on a priority track. In
addition, SSA disagreed with our assessment of administrative costs related to the
implementation of OEVS. Specifically, SSA noted that our estimate of a $300 cost per
reinstatement far exceeds the current unit cost for earnings disagreements, and the
projected savings may not be accurate. SSA stated it will determine how the
$300 amount was derived and recalculate the amount to provide a better cost per
reinstatement.

Office of the Inspector General Response
Over the past few years the OIG has conducted a number of reviews related to the
Earnings Suspense File issue. This current review builds upon our work and
demonstrates that significant problems exist in the service industry, specifically
employers with a transient workforce. SSA agrees this transient workforce is a
significant cause for wage reporting errors. In addition, our recommendations related to
the issues faced by this employer will further SSA's efforts to reduce contributions to the
ESF. In fact, SSA concurs with the substance of our recommendations, such as
educating employers, implementing OEVS, and pursuing viable options to the current
EVS.

Regarding SSA's disagreement with our estimate of administrative cost savings
resulting from the use of OEVS, we point out that both the item and cost figures were
provided by SSA and noted in our February 2000 report on SSA's ESF Tactical Plan.
We acknowledge the current cost per reinstatement may have changed with time. Since
SSA is unable to provide a better estimate, we have adjusted our report to show the
impact on administrative costs using only 10 percent of SSA's estimate, or $30 per
reinstatement. While the actual administrative cost savings may change once SSA
completes its review, our calculation demonstrates that a delay in implementing OEVS
impacts administrative costs.

We welcome SSA's commitment to determine a new cost per reinstatement. We
believe significant cost savings could be realized through timely implementation, for
many of the reasons SSA already cited in its February 28, 2000 Key Initiative Plan and
Schedule for OEVS. For example, SSA stated that OEVS will lead to (1) less Suspense
File accretions; (2) lower earnings reconciliation, corrections, and adjustments
workloads; (3) fewer claims inquiries from SSA customers; and (4) fewer
telephone/magnetic media EVS requests.

SSA also provided technical comments that we considered and incorporated, where
appropriate. SSA’s comments are included in Appendix D.




Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)          v
                                                         Table of Contents

                                                                                                             Page

INTRODUCTION ................................................................................................... 1

RESULTS OF REVIEW ......................................................................................... 6

TRANSIENT WORKFORCE AND INVALID DOCUMENTS

CONTRIBUTED TO SUSPENDED WAGES ......................................................... 6


     Employer’s Transient Workforce Increased Volume of Reported Wages......... 7
     Invalid Documents Contributed to Erroneous Wage Reports........................... 7

BUSINESS PRACTICES NEEDED STRENGTHENING TO

REDUCE SUSPENDED WAGES ........................................................................ 10


   Policy Permitted New Hires 3-Day Grace Period to Bring in Documentation ... 10
   Wage Reporting Problems Result of Weak Internal Control............................. 10
   Employees’ Documents Not Verified by Employer ........................................... 11

SSA’S PROGRAMS COULD PREVENT SIGNIFICANT WAGES

FROM ENTERING THE SUSPENSE FILE .......................................................... 12


   Employee Verification Service Program Could Have Improved
    Employer Reporting........................................................................................ 12
   ESF Tactical Plan Projects and Pilot Verification Projects
    Should Assist Employers................................................................................ 14

CONCLUSIONS AND RECOMMENDATIONS .................................................... 16

APPENDICES

APPENDIX A – Earnings Suspense File Tactical Plan
APPENDIX B – Summary of Selected Immigration and Naturalization
              Service Legislation
APPENDIX C – Immigration and Naturalization Service Form I-9 Required
               Documentation
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments




Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)
                                                                 Acronyms
                                                               and Forms
    Acronyms

    ESF                Earnings Suspense File


    ESLO               Employer Services Liaison Officer


    EVS                Employee Verification Service


    FO                 Field Office


    INS                Immigration and Naturalization Service


    IRCA               Immigration Reform and Control Act of 1986


    IRS                Internal Revenue Service


    OCSE               Office of Child Support Enforcement


    OEVS               On-line Employee Verification Service


    OIG                Office of the Inspector General


    SSA                Social Security Administration


    SSN                Social Security number


    TY                 Tax Year


    Forms

    Form I-9           Employment Eligibility Verification Form


    Form I-551         Resident Alien Card


    W-2                Wage and Tax Statement


    W-3                Transmittal of Wage and Tax Statement


    W-4                Employee’s Withholding Allowance Certificate





Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)
                                                                     Introduction

OBJECTIVE
The objective of our review was to understand possible reasons why employers submit
erroneous wage reports. To do this, we performed an in-depth case study of an
employer who continually submitted large numbers of invalid wage reports to the Social
Security Administration (SSA). Specifically, we (1) determined the causes of this
employer’s wage reporting errors and irregularities and (2) identified steps that SSA has
taken to reduce such occurrences.

BACKGROUND
SSA is required to maintain records of wages employers pay to individuals. Employers
must report employees’ earnings annually on Internal Revenue Service (IRS) Wage and
Tax Statement (Form W-2) to SSA. Employers with 250 or more employees must
submit their wage reports to SSA on magnetic media. Employers with fewer than
250 employees can submit their reports either in paper format or magnetic media.
Many employers choose to submit their reports through a payroll service provider.

SSA provides specific instructions to employers, through its Technical Information
Bulletin, for reporting W-2 information on magnetic media. These instructions, along
with SSA’s on-line assistance, and additional IRS instructions1 for completion of paper
Forms W-2 and W-3,2 convey the importance of reporting earnings to SSA promptly and
accurately. The instructions emphasize that employers should (1) exercise care in
recording Social Security numbers (SSN) to ensure earnings are properly credited and
(2) ask to see an employee’s SSN card.

W-2 wage reports that fail the Numident file3 name/SSN match cannot be credited to
workers’ earnings records, but, instead, are posted to the Earnings Suspense File
(ESF). Wages posted to the ESF can affect workers’ insured status for entitlement to
retirement, survivors, disability and health insurance benefits and the calculation of
benefit rates. Despite SSA’s efforts to reduce the growth and size of the ESF, such as
updated earnings system edit routines, verification programs, and letters to employers
and employees, the ESF grew by 8.4 million W-2s and $41.6 billion in wages in
Tax Year (TY) 1999. The ESF contained over 227 million suspended W-2s




1
    Instructions for Form W-2 and W-3.
2
    IRS Form W-3, Transmittal of Wage and Tax Statement.
3
 SSA’s master file containing information, such as the name and date of birth, for all individuals issued an
SSN.

Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)                          1
representing more than $333 billion in suspended wages posted between TYs 1937 and
1999 that could not be matched to individuals' earnings records, as shown in Figure 1.



                                           FIGURE 1: STATUS OF THE EARNINGS SUSPENSE FILE
                                                          (Tax Years 1937-1999)
              Suspended Wages (Billions)




                                           $45
                                           $40
                                           $35
                                           $30
                                           $25
                                           $20
                                           $15
                                           $10
                                           $5
                                           $0
                                              37
                                              40
                                              43
                                              46
                                              49
                                              52
                                              55
                                              58
                                              61
                                              64
                                              67
                                              70
                                              73
                                              76
                                              79
                                              82
                                              85
                                              88
                                              91
                                              94
                                              97
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                           19
                                                                 Tax Year




SSA Suspense File Initiatives

In March 1999, SSA issued its ESF Tactical Plan,4 which includes 10 projects (see
Appendix A) designed to lower the ESF’s growth by over 3 million items, annually, and
additional projects to reduce its size by over 36 million items on a one-time basis. SSA
is evaluating the results of two pilot projects that used the data bases of other Federal
agencies to assist employers in verifying employees’ names/SSNs. However, the
success of many of these projects and pilots depends on the collaboration with and
support from other agencies, such as the IRS, the Immigration and Naturalization
Service (INS), and the Office of Child Support Enforcement (OCSE).

Industry Distribution of 100 Employers and Selection of Profiled Employer

In a 1999 audit,5 we analyzed SSA’s ESF posting for TYs 1993 through 1996 (the most
recent data available at the time of our audit) to develop a data base of the
100 employers who had the most suspended wage items for the period. The audit

4
 We evaluated SSA’s plan and issued the report The Social Security Administration’s Earnings Suspense
File Tactical Plan and Efforts to Reduce the File’s Growth and Size (A-03-97-31003), February 2000.
5
 The Office of the Inspector General (OIG) evaluated employer reporting in the report, Patterns of
Reporting Errors and Irregularities by 100 Employers with the Most Suspended Wage Items
(A-03-98-31009), September 1999.

Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)                     2
showed that 84 of the 100 employers experienced increases in the number of
suspended W-2s for their employees, including 27 employers with at least a
100-percent increase. Many of the employers are in industries that traditionally rely on
low-wage, highly transient workers. Figure 2 shows the distribution, by industry, of the
100 employers.



                FIGURE 2: DISTRIBUTION OF 100 EMPLOYERS IN ESF



                   24%                           29%

                                                       Services
                                                       Restaurants
                                                       Agriculture
             2%                                        Hotel/Retail
              7%                                       State/Local Agency
                                                       Unknown


                    17%                    21%




For the 100 employers, we identified patterns of wage reporting errors and irregularities
in their TY 1996 suspense files.

•	 Unassigned SSNs: SSNs with area numbers (first 3 digits) or group numbers
   (second 2 digits) that SSA has never issued.
•	 Assigned SSNs: SSNs that have been issued by SSA, but the names on the W-2s
   do not match SSA’s Numident file.
•	 Same Address: Three or more W-2s contained the same mailing address, and the
   employees worked for the same employer.
•	 Duplicate SSNs: Two or more W-2s containing the same SSN for the same
   employer.
•	 Growth in Suspended W-2s: Percentage increase in suspended wages over a
   4-year period.

Using the information from the earlier audit, we selected an employer whose errors in
TY 1996 exceeded the average of the 100 employers in 3 of the above error categories
(1) unassigned SSNs; (2) same address; and (3) growth in suspended W-2s (see




Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)           3
Figure 3).6 In addition, the employer selected is in the largest industry sector, Services,
which depends on a low-wage workforce.7 After discussing the objective of our review,
this employer agreed to meet with us and discuss its operations.


                         FIGURE 3: W-2 IRREGULARITIES FOR PROFILED
                           EMPLOYER VERSUS AGGREGATED TOP 100
                               EMPLOYERS FOR TAX YEAR 1996
               Same Address on W-2s



                    Unassigned SSNs



                      Assigned SSNs


           Increase in Suspended W-2s
                   (TY 1993-96)



                                        0      20         40     60       80       100   120
                                                                Percent



                                        Average for 100        Profiled Employer




      Note: The W-2 irregularities above relate to TY 1996 except in the case of the
      percentage increase in Suspended W-2s. This increase represents suspended
      W-2s in TY 1993 compared to suspended W-2s in TY 1996.

SCOPE AND METHODOLOGY
To accomplish our objective, we performed the following steps.

•	 We selected an employer for this case study after comparing the errors and
   irregularities of 100 employers who incurred large numbers of suspended wage
   items over a 4-year period, TYs 1993 through 1996.

•	 We met with (1) Employer Services Liaison Officers (ESLO) in Chicago and
   Philadelphia to obtain an understanding of their interaction with employers and to
   determine whether any direct assistance was provided to our profiled employer and
   (2) a field office (FO) representative in Chicago to obtain additional background on
   this selected employer.



6
 Figure 3 does not compare duplicate SSN data since the employer had too few occurrences to be
measured on the chart provided.
7
 In January 2001, we issued a separate report on the agriculture industry, Significant Obstacles to
Reducing SSN Misuse in the Agriculture Industry Exist (A-08-99-41004).


Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)                      4
•   We met with INS staff who verified employee documents in INS data files.

•	 We met with responsible company officials and reviewed their hiring policies and
   procedures as well as any internal controls to prevent suspended items.

•	 We analyzed this employer’s suspended wage reports for TYs 1996 through 1998 to
   identify invalid names/SSNs and other reporting irregularities.

•	 We determined the average number of days worked and the average wages for the
   6,700 suspended wage reports in TY 1997. We computed the days worked by
   dividing each employee's suspended wages by $40.00 per day (average minimum
   wage of $4.95 per hour, rounded to $5.00, times an 8-hour workday). For this
   determination, we assumed that each of the 6,700 employees whose wages were
   suspended received the minimum hourly wage and did not work overtime.

•	 We tested the validity of employee documentation contained in personnel folders,
   such as SSN cards, INS documents, and employee statements. We planned to
   select a random sample of items from the 6,700 suspended items in this employer’s
   1997 suspense file: 1 sample of 50 items with all zero SSNs (or less than 9 digits)
   and a second sample of 50 items with complete SSNs (9 digits). However, because
   the employer was unable to locate all of the personnel files, we reviewed only
   13 files from the first sample and 6 files from the second sample. For the files
   provided, we matched the employees’ names/SSNs in the personnel folders to
   SSA’s Numident file and requested INS assistance to verify INS and Illinois State
   documents. Although we do not project the results of this testing, we are presenting
   the results of our limited personnel file review in this report because they provide
   some insight into the causes of this employer’s suspended wage reports.

Our review did not include a test of information systems to verify the completeness and
accuracy of the ESF data provided by SSA. We conducted this review at the
employer’s home office in Chicago, Illinois; SSA’s Mid-Atlantic Program Service Center
in Philadelphia, Pennsylvania; and SSA Headquarters in Baltimore, Maryland. We
conducted the fieldwork from November 1999 through October 2000. The SSA entity
that is responsible for the maintenance of the ESF is the Office of Systems
Requirements within the Office of the Deputy Commissioner of Systems.




Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)          5
                                              Results of Review

We identified several factors that contributed to the volume of this employer’s
suspended wages, such as (1) the transient nature of the employer’s workforce; (2) the
use of invalid documents presented at the time of hiring; (3) the employer’s flexible
hiring policy and weak internal controls; and (4) the employer's failure to use available
SSA programs to verify new employee documents. While our profiled employer has
taken steps to correct some of its internal business practices, the employer was not
familiar with SSA's verification programs that could have prevented significant wages
from entering the ESF.

TRANSIENT WORKFORCE AND INVALID DOCUMENTS
CONTRIBUTED TO SUSPENDED WAGES
The employer’s reliance on a highly transient workforce, combined with the large
percentage of invalid documents submitted by these employees, were major
contributors to the volume of suspended wages the employer reported to SSA. The
employer, in business since 1991, supplies temporary labor to approximately 150 client
companies in the Chicago metropolitan area. With about 85 full-time employees, the
employer hires up to 300 temporary workers on a daily basis to perform light industrial
work, such as packing and assembly work and loading and unloading trucks. It
operates 22 hours a day and supplies workers for 3 shifts.

Since 1993, the employer has experienced continued growth in business activity, as
evidenced by the number of W-2s issued. For example, in TY 1998, the employer
issued over 17,400 W-2 wage reports, a 571-percent increase over TY 1993. The
employer also experienced a 367-percent increase in suspended W-2s over this same
period. Figure 4 charts the number of W-2s reported and suspended over the 6-year
period, TYs 1993 to 1998.


                          FIGURE 4: EMPLOYER'S TOTAL W-2s AND
                             SUSPENDED W-2s (TYs 1993-1998)
                20,000
                18,000
                16,000
                14,000
                12,000
                10,000
                 8,000
                 6,000
                 4,000
                 2,000
                     0
                         1993     1994        1995      1996       1997   1998
                                                 Tax Year
                                 Total W-2s       Suspended W-2s


Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)            6
Employer’s Transient Workforce Increased Volume of Reported Wages

Because of the requirements of a temporary labor operation, the employer attracts and
hires a generally low-wage workforce that is constantly changing. The transient nature
of this workforce contributes to the volume of suspended wage items. According to the
employer, over 86 percent of the employees who received a W-2 in TY 1997 did not
work for the company in TY 1998. Further, many employees only worked for several
days and then moved on.

To illustrate the transient nature of the workforce, we computed the number of days
worked by the 6,700 suspended employees using available wage data. Our analysis of
the TY 1997 wage data shows 4,100 (61 percent) employees earned $1,000 or less
during TY 1997. The employer also told us that approximately 90 percent of the
workforce earned minimum wage. Using this information, we determined that
approximately 1,700 employees (26 percent) worked just 2 days or less, and another
1,500 employees (22 percent) worked just 3 to 9 days (see Figure 5). These
employees chose not to work long-term, despite the fact that the employer provided
many opportunities to work.

                              FIGURE 5: ESTIMATED WORKDAYS FOR 6,700
                                 SUSPENDED EMPLOYEES IN TY 1997


                      2 Days or Less
          Workdays




                            3-9 Days

                         10-19 Days

                     20 Days or More

                                       0   500   1,000    1,500      2,000   2,500   3,000
                                                         Employees




Invalid Documents Contributed to Erroneous Wage Reports

The high percentage of invalid documents submitted by employees, combined with the
nature of the employer’s workforce, was a major contributor to wage reporting problems.
Our analysis of the employer’s suspended wage items for the 3-year period, TYs 1996
through 1998, showed that approximately 96 percent of the reported items contained
errors and irregularities. These errors included (1) SSNs that were never issued
(unassigned SSNs); (2) SSNs that belonged to other individuals (assigned SSNs); and




Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)             7
(3) SSNs used two or more times (duplicate SSNs). Figure 6 illustrates the cumulative
growth of fraud indicators for this employer during a 3-year period.8

                  FIGURE 6: GROWTH OF FRAUD INDICATORS IN EMPLOYER'S

                         EARNINGS SUSPENSE FILE AT SSA (TYs 1996-1998)


                 9,000
                 8,000
                 7,000
          W-2s




                                                                        Assigned/Duplicate
                 6,000                                                  SSN/Name
                 5,000                                                  Assigned-Different
                 4,000                                                  Individual
                 3,000                                                  Unassigned SSNs
                 2,000
                 1,000
                     0
                          1996         1997          1998
                                    Tax Year


In addition to the fraud indicators, our limited review of the employer’s TY 1997
personnel folders showed evidence of workers providing invalid names/SSNs and INS
documents. We verified employee information recorded on the INS Employment
Eligibility Verification Form (Form I-9), as well as other records, by tracing the data to
SSA’s Numident file, INS data files, and State records.9 As shown in Figure 7, of the 19
folders available to us,10 we found that 11 contained invalid documents, 2 contained no
documents, and 6 had valid documents. Within these 19 folders, we found that 11 of
the 17 documents we reviewed with SSNs11 (65 percent) were invalid. We also found
that all of the eight INS Resident Alien Cards (Form I-551) we reviewed were invalid.
The most reliable documents were those issued by the State, such as drivers’ licenses
and identification cards.



8
  We excluded zero SSNs from the fraud indicators because our review of personnel folders (see Wage
Reporting Problems Result of Weak Internal Control) indicated possible employer errors. We did not
have duplicate address information available for these years, so we do not have any information on this
fraud indicator.
9
    Employee files can contain more than one identification document.
10
 The 19 folders represent items from both samples: zero SSNs and complete SSNs. See Scope and
Methodology section for more information.
11
     Two employee folders did not contain documents with SSNs.


Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)                          8
                  FIGURE 7: REVIEW OF INFORMATION IN EMPLOYEE'S FILES (TY 1997)

                       12

                       10

                        8
                  Number
                  of    6                                                           Total
                  Files
                                                                                    Invalid
                        4

                        2

                        0
                              I-551     SSN Cards     SSN W/O     State ID
                                                       Card

                                          Documents



Employers in the State of Illinois must deal with a large population of undocumented
workers12 who have easy access to counterfeit documents. An SSA FO representative
informed us that fake documents are sold in the Chicago area in packets of threes,
which include an INS card, an SSN card, and a local driver’s license. The sale of such
documents appears to be so prevalent that a local newspaper reported, in September
1999, that violent gangs are extorting “street taxes” from vendors of counterfeit
documents.13

In July 1999, the General Accounting Office stated in testimony before a congressional
committee,14 that invalid documents are undermining the employment verification
process. The report noted that the INS identified about 50,000 noncitizens who used
78,000 invalid documents to obtain employment from October 1996 through May 1998.
About 60 percent of the invalid documents were INS documents, and most of the
remaining were SSN cards. The report also noted that employers should not be
expected to detect skillfully prepared invalid documents.




12
  In its October 1996 report, Illegal Alien Resident Population, the INS estimated the State of Illinois has
over 290,000 undocumented immigrants, the fifth largest concentration in the nation.
13
     Fake Papers Net Real Cash, Chicago Tribune, September 19, 1999.
14
  Fraudulent Documents Undermining the Effectiveness of the System, testimony before the
Subcommittee on Immigration and Claims, Committee on the Judiciary, House of Representatives
(GAO/T-GGD/HEHS-99-175, July 1999).

Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)                               9
BUSINESS PRACTICES NEEDED STRENGTHENING
TO REDUCE SUSPENDED WAGES
In our review of the employer, we identified three business practices that contributed to
the volume of its suspended wages. These business practices, some of which are
unique to this employer, included (1) a policy permitting new hires a 3-day grace period
to bring in identity and work eligibility documents; (2) a weak internal control that
resulted in the employer’s failure to report all available SSNs to SSA; and (3) lack of
verification of documents submitted by new hires.

Policy Permitted New Hires 3-Day Grace Period to Bring in Documentation

To meet its workforce requirements, the employer had a hiring policy that
accommodated large numbers of transient workers. According to the employer, over
95 percent of its workforce population speaks little or no English and is usually
apprehensive when applying for work. We were informed that many workers do not
carry the required identity and work eligibility documents with them for fear of losing
them. The employer, therefore, permitted them a grace period of up to 3 days to bring
in the documents for management’s review. During the grace period, the new hires
were put to work and paid daily.

The employer estimated that up to one-third of the workers whose wages were
suspended did not return after 2 days of work. This estimate is consistent with our
analysis of the days worked by the 6,700 employees whose wages were suspended
(see Figure 5). As a result of the employer’s hiring policy, we estimate the wages of
1,700 employees who worked just 2 days or less ended up in the ESF. Although it is
difficult to determine the various reasons, it is possible that some of these workers did
not return for work on the third day because they lacked valid identity/work authorization
documents.

The employer informed us it discontinued the 3-day grace period in 1999. New hires
who don’t carry the documents are still permitted to work on their first day. However,
the employer implemented a new step requiring that managers obtain identification
documents from a new employee before distributing the first paycheck. The effect of
this change is that the 3-day policy is now a 1-day policy, since paychecks are provided
on a daily basis.

Wage Reporting Problems Result of Weak Internal Control

Our review of the employer’s TY 1997 personnel folders showed that some wage items
ended up in the ESF because of an internal control weakness. The employer did not
have a control in place to ensure that all SSNs provided by employees were also
recorded in payroll records. Of the 13 personnel folders we reviewed,15 6 folders
contained valid names/SSNs that matched to data in SSA’s Numident file. The wages

15
     This sample consisted of zero SSNs or SSNs with fewer than nine digits.

Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)        10
for these six employees would not have been suspended if the names/SSNs as
contained in the folders were reported to SSA. To illustrate, we compared the
employee information in one folder to SSA’s Numident file and found the folder
contained both a valid name and SSN. However, according to SSA’s ESF records, only
the name was properly input while the SSN was reported as zeros.

When informed of this condition, the employer stated that, after the 3-day grace period,
some employees would bring in valid SSNs, which were then recorded in their
personnel folders.16 Because these individuals were already receiving paychecks, the
employer’s clerks sometimes neglected to pass the SSNs on to the payroll department.
Consequently, some SSNs were recorded as zeros on payroll records and the annual
wage reports. Due to the large number of employees hired on a daily basis, these
errors went undetected.

The employer stated that a recent procedural change addresses this internal control
weakness. The payroll department is now alerted an SSN is missing when a check is
prepared. A check will not be issued until an SSN is on file in the payroll department.
The earlier requirement that identification documents be submitted, combined with this
new payroll edit, is designed to ensure that all available SSNs are reported to SSA.
However, we did not verify these new procedures or their impact on the employer’s
wage reporting to SSA, since they occurred after the period of our review.

Employees’ Documents Not Verified By Employer

Although the employer had occasionally contacted the local SSA FO to verify a limited
number of SSNs, it was not company policy to verify the SSNs or documents submitted
by new hires. In part, this was due to the large number of new hires and the hiring
guidelines established by the Immigration Reform and Control Act of 1986 (IRCA).17

IRCA requires employers to certify whether their employees are authorized to work in
the United States and makes it illegal for employers to knowingly hire unauthorized
noncitizens. IRCA also states that, as long as an employee’s documents are allowed by
law, appear to be genuine on their face, and relate to the person, they should be
accepted. The employer maintains an INS Form I-9 for each employee. However, the
employer has not taken any steps to verify the accuracy of employees’ documents,
even though it is aware that some may be invalid.

The employer also stated that employee documents that do not contain correct
names/SSNs might be the primary cause for its large numbers of suspended items.
However, the employer also stated that, even if it suspected the documents were false,
the company would not be inclined to fire the individuals because of fear of a

16
  Personnel folders contained the following documents: personal information forms; INS Form I-9 that
references to identity and work eligibility documents; and IRS Employee’s Withholdings Allowance
Certificate (Form W-4). We discuss invalid documents in another section of this report.
17
     Public Law No. 99-603. See Appendix B for a summary of selected INS legislation.

Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)                       11
discrimination lawsuit under IRCA. The employer also noted that the company is not
familiar with detecting invalid documents. This factor, combined with a high workforce
turnover, contributed in part to the employer's wage reporting problems.

Presently, up to 29 documents18 issued by various Federal, State, and local awarding
agencies are valid for completing the Form I-9. The variety of acceptable identification
may discourage employers from verifying these documents. Acceptable records include
(1) INS identity and work authorization documents; (2) U.S. passports; (3) SSN cards;
(4) State and local Government records; and (5) records from schools, medical facilities,
and the military services.

SSA’S PROGRAMS COULD PREVENT SIGNIFICANT
WAGES FROM ENTERING THE SUSPENSE FILE
SSA provides various programs to assist employers in preparing accurate wage reports,
including a name/SSN verification program that could have significantly reduced the
amount of suspended wages for our profiled employer. However, the employer was
either unaware of these programs or reluctant to use them. SSA plans to conduct
greater outreach to employers and enhance some of the current verification programs to
better assist employers with wage reporting problems. These projects have the
potential to reduce ESF administrative costs as well. In addition, SSA is evaluating pilot
verification programs to see how they can assist employers. Nonetheless, the size of
the ESF will continue to grow unless SSA is proactive in implementing these programs.

Employee Verification Service Program Could Have Improved
Employer Reporting

The employer’s use of SSA’s primary name/SSN verification program, the Employee
Verification Service (EVS),19 could have prevented significant wages from entering the
suspense file. We estimate that, had the employer been aware of and registered for the
EVS program in TY 1997, up to $10.2 million in suspended wages (76 percent) could
have been prevented or at least reduced. The avoidable suspended wages represent
amounts paid by the employer after the point where EVS verification would have noted
an invalid name/SSN.




18
     See Appendix C for a sample INS Form I-9 showing a list of 29 acceptable documents.
19
 In our February 2000 report on SSA's ESF tactical plan, we reported that only about 3,000 of 6.5 million
employers have registered for the program.


Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)                      12
Under EVS, employers with a large workforce can register with the Office of Central
Operations and submit more than 50 SSNs for verification. The usual turnaround time
for this verification is 30 calendar days or 22 workdays.20 For our profiled employer,
EVS would have identified 2,700 employees who worked 23 days or more and provided
invalid SSNs. The employer would then have had the opportunity to go back to the
employee and request a valid SSN. As noted above, this action could have reduced the
volume of suspended wages reported by this employer for these employees. For the
4,000 employees who worked 22 days or fewer for this employer, EVS information
would have been too late because these individuals would have already left the
company.21

When we asked a company officer why the payroll staff never used the EVS program,
he stated he was not aware of this SSA program. Once we explained the potential
benefits of EVS in identifying bad names/SSNs, the employer was still reluctant to use
this verification program, noting the program was of limited use to his company since it
did not provide advance knowledge of an employee’s SSN status before they were
added to the payroll.

The employer was also unaware of other SSA services, such as the Region’s ESLO
and SSA’s Internet site, that could have assisted the company with wage reporting
problems. SSA maintains ESLOs in each Region. The ESLO's responsibilities include
(1) answering employers’ questions on magnetic media submission of W-2s;
(2) conducting wage-reporting seminars, in partnership with the IRS, for employers,
payroll service providers, and payroll software companies; and (3) contacting employers
in their regions who have 100 or more suspended wage items. However, the regional
ESLO had not contacted our profiled employer, although the local FO representative
had visited the employer at its work site. 22

Employers can also access SSA’s Internet site, which contains the latest wage reporting
requirements and a monthly SSN listing of valid area numbers (first three digits) and
valid group numbers (next two digits). Had our profiled employer known about this
Internet site, the use of this SSN information within the employer’s payroll software
could have aided the employer in identifying invalid SSNs and prevented suspended
wages. As noted in Figure 3, unassigned SSNs accounted for 40 percent of the
suspended wage items for this employer.


20
  We interpreted the 30-day turnaround time to be calendar days and equivalent to 22 working days. The
employer can also submit up to 50 SSNs to the local FO, however, turnaround time would vary,
depending on the FO’s workload.
21
  SSA also offers employers a real-time, toll-free verification system for up to five SSNs However, this
system is not designed for large employers with multiple hires, as is the case with the employer in this
review.
22
  As early as 1996, SSA has been providing ESLO’s with names of over 7,000 employers who submitted
100 or more suspended wage reports annually. Due to the large number of employers, ESLOs can
choose regional staff or local managers to contact the employers.

Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)                           13
ESF Tactical Plan Projects and Pilot Verification Projects Should
Assist Employers

SSA has acknowledged it needs to increase interaction with employers and make EVS

more user-friendly. In its 1999 ESF Tactical Plan, SSA planned to

(1) conduct outreach efforts with “problem” industries and States in collaboration with

the INS, (2) provide overnight electronic name/SSN verification services to employers

(that is, EVS), and (3) provide error feedback to employers on new hire reports in

collaboration with the OCSE. Together, these projects are expected to reduce the size

of the ESF by 500,000 items, annually.23 However, SSA needs to be more proactive if it

intends to correct some of the problems identified at our profiled employer.


In our earlier review of the ESF Tactical Plan, we noted the ESF is likely to continue to

grow unless SSA takes aggressive and/or timely action. We also noted that, while SSA

had identified 7,000 employers in need of assistance to correct and prevent wage

reporting errors, as outlined in the first project above, Agency efforts did not specifically

address the small number of employers who continually add large numbers of wage

items to the ESF and/or disregard wage reporting problems. Our profiled employer falls

into this category of employers not sufficiently monitored by SSA. As a result, the

problems noted with our profiled employer, such as the unawareness of EVS, may

continue to occur with other employers until this initiative is more focused.


The second project, providing on-line EVS (OEVS), would reduce the present

turnaround time by providing overnight electronic name/SSN verification for up to 500

name/SSN requests per session. This project comes close to meeting the needs of our

employer for advance knowledge of an employee’s SSN. SSA's Tactical Plan notes

that OEVS could prevent an estimated 200,000 items from going into the ESF, annually.

In the past, SSA reported that it can cost as much as $300 to remove an item from the

ESF.24 However, SSA staff has advised us that this figure exceeds the current costs to

reinstate a wage item. SSA is calculating a new figure. Assuming SSA would be able

to reinstate all 200,000 of these wage items, and estimating that the current cost to

reinstate a wage item is only 10 percent of SSA's earlier estimate (or $30 per item),

OEVS has the potential to reduce administrative costs by approximately $6 million,

annually. The OEVS project was planned for release in August 2000. However, as of

March 2001, SSA noted that release of the project was still "awaiting Administrative

decision."25





23
     See Appendix A for the ESF item reduction estimates related to each of these projects.
24
  We reported this in our earlier audit, The Social Security Administration’s Earnings Suspense File
Tactical Plan and Efforts to Reduce the File’s Growth and Size.
25
     Executive Customer Targeted Work Meeting, March 19, 2001.


Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)                       14
The third project, providing error feedback to employers on new hire reports in
collaboration with the OCSE, is known as the SSN Feedback Pilot Project. OCSE
maintains a national directory of all new hires.26 Employers are mandated under
Federal law to submit new hire data through State agencies to OCSE. Civil monetary
penalties can be imposed by the State agencies on employers for noncompliance. The
joint pilot began in July 1999, lasted just 1 year, and was limited to employers from
Massachusetts and Illinois (the locale of our profiled employer). Under the pilot, SSA
verified the names/SSNs of new hires in the OCSE directory against SSA’s Numident
file containing all valid SSNs. Employers were notified within 15 to 30 days of
nonmatches and were asked to correct their records. However, employers were not
required to resubmit corrected data. As of March 2001, the OCSE pilot results were still
under evaluation.

SSA is also conducting a joint pilot with INS called the Basic Pilot Employment Eligibility
Confirmation Program.27 The pilot provides volunteer employers in five States,
including Illinois where our profiled employer is located, with query access to SSA and
INS data bases to verify a new employee’s name/SSN, authorization to work, and alien
registration number within 3 business days after hiring. If the pilot does not verify the
name/SSN data, the employer can request additional documentation from those new
hires who provided the invalid data. The employer also has the option of terminating an
employee who provided invalid information as long as the action was taken in good faith
reliance on information provided through the program. The pilot began in November
1997 and will run for 4 years. Although our profiled employer was encouraged to join
the program by a local FO representative, the employer declined to participate.

Both the INS and OCSE pilots, if proven successful, have an advantage over the
current voluntary EVS program for registered employers since they provide more timely
feedback to large employers. However, the OCSE pilot has additional advantages over
the voluntary INS pilot as well since (1) the submission of name/SSN data for new hires
is federally mandated; (2) a State-administered penalty mechanism is already in place
for noncompliance; and (3) no additional submission requirements are placed on the
employer. In its 1999 Employer Focus Group Report, SSA found that large employers
prefer an EVS system that “automatically provides feedback on mismatches soon after
the employee is hired.”28 The joint pilot has the potential to meet this need.




26
  Under the Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public Law No.
104-193), employers are required to submit new hire data to designated State agencies.
27
 The program is one of three established under the Illegal Immigration Reform and Immigrant
Responsibility Act of 1996 (Public Law No. 104-208). Other programs are Citizen Attestation Pilot and
Machine-Readable Document Pilot. The programs were offered to employers in Illinois, California, Texas,
New York, and Florida. Pilot results are not yet available.
28
  In May and June 1999, SSA's Office of Communications held focus groups and conducted interviews
with employers, representatives of employer stakeholder organizations, and interested third parties.

Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)                       15
                                           Conclusions and
                                          Recommendations
The employer in our review faces both internal and external factors that are the major
causes for the size and growth of its suspended wages. The employer has taken
several internal steps to reduce suspended wages, which include (1) eliminating the
3-day grace period for new hires to bring in documentation and (2) implementing a
procedure that alerts the payroll department when an SSN is missing. However, the
employer will have more difficulty addressing its dependence on a transient workforce.
In addition, the employer has had difficulties with employees submitting invalid INS and
SSA documents and the number of suspended wage items that resulted from these
documents. Nonetheless, we believe this employer’s suspended wages resulting from
invalid documents could have been significantly reduced if it had been better informed
and encouraged by SSA to take full advantage of the available wage reporting services.

Although SSA has a number of ongoing projects to control the size of the ESF, we
believe there are three projects that, when fully implemented, are more likely to address
the needs of our profiled employer in reducing its suspended items and wages. The
projects include (1) conducting outreach efforts with “problem” industries and States
with collaboration from INS; (2) providing on-line name/SSN verification service for up to
500 SSNs, which does not require any outside agency support; and (3) providing error
feedback to employers on new hire reports with collaboration from INS and OCSE
through joint pilots. However, some of these projects have either lacked a clear focus
or have been delayed, necessitating greater Agency attention if the size of the ESF is to
be reduced.

The INS and OCSE pilots cited above have the potential to provide SSA a quicker
mechanism than the current EVS for reporting bad data back to large employers. In
addition, the joint SSA/OCSE pilot has additional advantages over the current EVS
program for registered employers and even the INS pilot. However, the actual benefits
of the OCSE pilot will not be known until SSA completes its evaluation.

We have already made several recommendations in prior reports related to employer
bad wage reporting. For example, we have recommended (1) mandatory use of EVS
by those employers who continue to submit large numbers of invalid wage reports; (2)
preparation of a legislative proposal giving employers the right to view SSN cards; and
(3) the enforcement of IRS sanctions against employers who continually submit
erroneous wage reports.

As a result of our work with this profiled employer, we make the following additional
recommendations to SSA to improve oversight of employers with large numbers of
suspended wage items and provide them with sufficient tools to detect erroneous data.



Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)        16
1. 	 Until the use of EVS is mandatory, ensure ESLOs increase awareness of EVS
     among those employers who have submitted large numbers of suspended wage
     reports, including those identified by SSA’s OIG in its 100 Employers report.

2. 	 Prioritize the implementation of the ESF tactical plan proposal to provide
     OEVS to employers, which will assist employers in identifying invalid documents
     submitted by new hires while also preventing 200,000 wage items from going into
     the ESF and reducing overall ESF administrative costs by approximately $6 million,
     annually.

3. 	 Continue to pursue and/or expand upon viable options to the current EVS
     procedures, such as the INS and OCSE pilots, to broaden employer participation in
     SSA’s name/SSN verification projects.

Agency Comments
SSA took exception to the statements and recommendations made in the report
because they were based on the examination of a single employer. SSA believes the
most significant cause for wage reporting errors is the transient nature of the employers'
workforce and noncompliance on the part of employers. As a result, SSA is not
comfortable in predicting a significant reduction of items in the ESF.

SSA concurred with Recommendations 1 and 3. However, SSA did not concur with
Recommendation 2. SSA stated that OEVS has already been put on a priority track. In
addition, SSA disagreed with our assessment of administrative costs related to the
implementation of OEVS. Specifically, SSA noted that our estimate of a $300 cost per
reinstatement far exceeds the current unit cost for earnings disagreements, and the
projected savings may not be accurate. SSA stated it will determine how the
$300 amount was derived and recalculate the amount to provide a better cost per
reinstatement.

Office of the Inspector General Response
Over the past few years the OIG has conducted a number of reviews related to the
Earnings Suspense File issue. This current review builds upon our work and
demonstrates that significant problems exist in the service industry, specifically
employers with a transient workforce. SSA agrees this transient workforce is a
significant cause for wage reporting errors. In addition, our recommendations related to
the issues faced by this employer will further SSA's efforts to reduce contributions to the
ESF. In fact, SSA concurs with the substance of our recommendations, such as
educating employers, implementing OEVS, and pursuing viable options to the current
EVS.

Regarding SSA's disagreement with our estimate of administrative cost savings
resulting from the use of OEVS, we point out that both the item and cost figures were
provided by SSA and noted in our February 2000 report on SSA's ESF Tactical Plan.

Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)         17
We acknowledge the current cost per reinstatement may have changed with time.
Since SSA is unable to provide a better estimate, we have adjusted our report to show
the impact on administrative costs using only 10 percent of SSA's estimate, or $30 per
reinstatement. While the actual administrative cost savings may change once SSA
completes its review, our calculation above demonstrates that a delay in implementing
OEVS impacts administrative costs.

We welcome SSA's commitment to determine a new cost per reinstatement. We
believe significant cost savings could be realized through timely implementation, for
many of the reasons SSA already cited in its February 28, 2000 Key Initiative Plan and
Schedule for OEVS. For example, SSA stated that OEVS will lead to (1) less Suspense
File accretions; (2) lower earnings reconciliation, corrections, and adjustments
workloads; (3) fewer claims inquiries from SSA customers; and (4) fewer
telephone/magnetic media EVS requests.

SSA also provided technical comments that we considered and incorporated, where
appropriate. SSA’s comments are included in Appendix D.




Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)     18
                                           Appendices





Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)   19

                                                                                     Appendix A
Earnings Suspense File Tactical Plan
                                                         Project Status As             SSA's Estimated
             Project Description                          Of July 2000 (1)                 Annual
                                                        Start          End             Reduction in ESF
                                                                                            Items
 1. Strengthen Name/Social Security Number
 (SSN) Validation Software Used for                    Initiated     February 1999            60,000
 Determining Wage Earner Identity
 2. Request the Internal Revenue Service
 (IRS) Establish Audit Policy for “Chronic             Initiated          TBD                100,000
 Problem Employers”
 3. Provide Error Feedback to Employers on
 New Hire Reports in Collaboration with the            Initiated      October 2000           100,000
 Office of Child Support Enforcement                                       (2)
 4. Provide Overnight Electronic Name/SSN
 Verification Services to Employers (that is,          Initiated      August 2000            200,000
 On-line Employee Verification Service)                                   (3)
 5. Establish Effective Format for Customer
 Name                                                  Initiated      January 2002         No Estimate
 6. Improve Communication of Report Errors to
 Employers/Submitters and Employees                    Initiated         TBD (4)            1,000,000
 7. Establish Employers Right to See Social
 Security Card                                          TBD               TBD                150,000
 8. Conduct Outreach Efforts with “Problem”
 Industries and States in Collaboration with the
 Immigration and Naturalization Service and            Initiated        Ongoing              200,000
 the IRS
 9. Establish and Implement IRS Penalty
 Provision for “Chronic Problem                         TBD               TBD               1,500,000
 Employers”
 10. Revise the Social Security
 Administration’s (SSA) Earnings System to             Initiated          TBD                 50,000
 Immediately Accept and Post All Valid Wage
 and Tax Statements (W-2) Received From
 Employers

 Estimated Annual Reduction in Items                                                        3,360,000


TBD = To be determined.

Notes: (1) In a February 2001 meeting, SSA staff noted that this was the most current ESF Tactical Plan
           project status document.
       (2) SSA has conducted the pilot, but was still evaluating the pilot results at the time of our review.
       (3) SSA had planned to implement this by August 2000. However, as of March 2001, SSA noted
           that release of the project was still "awaiting Administrative decision."
       (4) SSA staff have noted the Agency has already improved the process in Tax Year 2000.

Sources: March 1999 and July 2000 Earnings Suspense File Tactical Plan Updates and discussions with
SSA officials.
Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)
                                                                             Appendix B
Summary of Selected Immigration and Naturalization
Service Legislation
                                       Date
        Legislation                   Enacted                        Provisions

 Social Security Act            October 30, 1972     Provides that Social Security numbers
 Amendments (Public Law                              (SSN) be assigned to noncitizens at the
 No. 92-603 §137)                                    time of their lawful admission to the United
                                                     States either for permanent residence or to
                                                     engage in employment in the United States.
 Immigration Reform and         November 6, 1986     Establishes an employment verification
 Control Act of 1986                                 system that
 (Public Law No. 99-603)                             1. Requires an employer to attest that the
                                                         employee's work status has been
                                                         verified by examination of a passport,
                                                         birth certificate, SSN card, alien
                                                         documentation papers or other proof.
                                                         An employer has complied with this
                                                         requirement if the document reasonably
                                                         appears on its face to be genuine.
                                                     2. Makes it an unfair immigration-related
                                                         practice for an employer of three or
                                                         more persons to discriminate against
                                                         any individual (other than an
                                                         unauthorized noncitizens) with respect
                                                         to hiring, recruitment, firing, or referral
                                                         for fee, because of such individual’s
                                                         origin or citizenship status.
 Illegal Immigration Reform     September 30, 1996   1. Within 1 year of enactment, requires the
 and Immigrant Responsibility                            establishment of three distinct pilot
 Act of 1996 (Public Law No.                             programs, each of which will last for
 104-208)                                                4 years. The pilots include (a) a basic
                                                         employee verification pilot program;
                                                         (b) a citizen attestation program; and
                                                         (c) a machine-readable document
                                                         program.
                                                     2. Requires the Social Security
                                                         Administration to develop cost
                                                         estimates for a prototype counterfeit
                                                         resistant card with various security
                                                         features that could be used in
                                                         establishing proof of citizenship or legal
                                                         noncitizenship status.




Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)
                                                                                         Appendix C
  Immigration and Naturalization Service Form I-9
  Required Documentation
  An employer is required to examine one document from List A or examine
  one document from List B and one from List C.

        List A                                      List B                                  List C
Documents that Establish
   Both Identity and                  Documents that Establish                Documents that Establish
 Employment Eligibility                      Identity                          Employment Eligibility
1. U.S. Passport                     1. State driver’s license or             1. Social Security card issued by
                                     identification card with photo and       the Social Security Administration
                                     personal information                     (other than a card stating it is not
                                                                              valid for employment)

2. Certificate of U.S. Citizenship   2. Federal, State, local Government      2. Certificate of Birth Abroad issued
Immigration and Naturalization       agencies identification card with        by State Department (Form FS-545
Service (INS) (Form N-560 or         photo and personal information           or Form DS-1350)
N-561)
3. Certificate of Naturalization     3. School identification card with       3. Birth Certificate issued by State,
(INS Form N-550 or N-570)            photo                                    county, municipal authority or U.S.
                                                                              possession

4. Foreign passport (unexpired)      4. Voter’s registration card             4. Native American tribal document
with I-551 stamp or INS
Form I-94

5. Alien Registration Receipt card   5. U.S. military card or draft record    5. U.S. Citizen Identification Card
with photo (INS Form I-551)                                                   (INS Form I-197)

6. Temporary Card (unexpired)        6. Military dependent’s ID card          6. ID Card for use of Resident
(INS Form I-688)                                                              Citizen in the United States
                                                                              (INS Form I-179)

7. Employment Authorization Card     7. U.S. Coast Guard Merchant             7. INS Employment Authorization
(unexpired) (INS                     Mariner Card                             document (unexpired) (other than
Form I-688A)                                                                  those listed under List A)

8. Reentry Permit (unexpired)        8. Native American tribal document
(INS Form I-327)

9. Refugee Travel Document           9. Canadian driver’s license
(unexpired) (INS Form I-571)

10. Employment Authorization         10. School record or report card
Document with photo (INS Form        (persons under age 18)
I-688B)
                                     11. Medical record: clinic, doctor, or
                                     hospital (persons under age 18)

                                     12. Day-care or nursery school
                                     record (persons under age 18)




  Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)
                                                                         Appendix D

Agency Comments





Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)
                                        SOCIAL         SECURITY

MEMORANDUM                                                                     29320-24-583


Date      August   22,   2001                                                   Refer To: S lJ-3

To:       JamesG. Ruse, Jr.
                                  /
          Inspector General

 :rom:    Acting  Massanari ( ~11,       //
                                               1
          LarryG.CommissionerffS<fiar'~c£rity'\. ra


Subject   Office of the InspectV General(OIG) Draft ManagementAdvisory Report," Review Of Service
          Industry Employer With Wage Reporting Problems" (A-O3-00-l0022)-INFORMATION


          We appreciateOIG's efforts in conducting the subjectreview. Our comments on the report's
          content and recommendations are attached.

          Pleaselet us know if we canbe of further assistance.Staff questionsmay be referred to
          Robert Berzanski on extension5-2675.

          Attachment:
          SSA Comments
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “REVIEW OF SERVICE INDUSTRY EMPLOYER WITH WAGE
REPORTING PROBLEMS” (A-03-00-10022)

Thank you for the opportunity to review and provide comments on this draft report.

We have serious reservations about OIG making broad policy statements and recommendations
based on the examination of a single employer. We do not concur with the conclusion that the
implementation of these recommendations will have a significant impact on the numbers of
earnings items going to the Earnings Suspense File (ESF). We believe the most significant cause
for wage reporting errors is the transient nature of the employers' workforce, and noncompliance
on the part of employers. While the steps recommended may help reduce wage-reporting errors,
we are not comfortable in predicting a significant reduction of items in the ESF.

Recommendation 1

Until the use of Employee Verification Service (EVS) is mandatory, ensure Employer Services
Liaison Officers (ESLOs) increase awareness of EVS among those employers who have
submitted large numbers of suspended wage reports, including those identified by SSA’s OIG in
its 100 Employers report.
Comment

We agree that the ESLOs should continue to inform employers of EVS. A concentrated effort
will continue to contact those employers who have submitted large numbers of suspended wage
reports, including those identified in the 100 Employers report (Patterns of Reporting Errors and
Irregularities by 100 Employers with the Most Suspended Wage Items A-03-98-31009). ESLOs
will also continue to contact and invite large problem filers to seminars to educate them on the
availability and use of EVS as part of their individual outreach efforts and in association with the
Internal Revenue Service seminars.

Recommendation 2

Prioritize the implementation of the ESF tactical plan proposal to provide Online Employee
Verification Service (OEVS) to employers, which will assist employers in identifying invalid
documents submitted by new hires while also preventing up to 200,000 items from going into the
ESF and reducing overall ESF administrative costs by as much as $60 million, annually.
Comment

We do not concur. OEVS has already been put on a priority track, including a separate OEVS
tactical plan. Therefore, it is not necessary to further modify the ESF tactical plan. However,
given the extremely sensitive nature of providing name and Social Security number (SSN)
information online, it is imperative that SSA address all the issues and concerns raised by
members of congress, advocacy groups, and the public in general before implementing OEVS.



Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)                D-2
We also disagree with the assessment that implementing this recommendation would prevent up
to 200,000 items from going into the ESF and reduce overall ESF administrative costs by as
much as $60 million annually. Although we cannot provide the average unit cost to work an
earnings disagreement at this time, we believe OIG's estimate of a $300 cost per reinstatement
far exceeds the current unit cost for earnings disagreements and therefore, projects huge savings
that may not be accurate. We will determine how the $300 amount was derived and recalculate
the amount to provide a better cost per reinstatement. The earlier audit report referenced
(Patterns of Reporting Errors and Irregularities by 100 Employers with the Most Suspended
Wage Items, A-03-98-31009) reviewed wage items from 1993 through 1996.

Recommendation 3

Continue to pursue and/or expand upon viable options to the current EVS procedures, such as the
Immigration and Naturalization Service (INS) and Office of Child Support Enforcement (OCSE)
pilots, to broaden employer participation in SSA’s name/SSN verification projects.
Comment

We concur and will continue to explore the viability of performing additional pilots as
determined appropriate and cost effective.




Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)              D-3
                                                                         Appendix E
OIG Contacts and Staff Acknowledgements

OIG Contacts
   Kimberly A. Byrd, Acting Director, Operations Audit Division, (205) 801-1605

   Walter Bayer, Deputy Director, (215) 597-4080

Acknowledgments
In addition to those named above:

   Lou Faiola, Lead Auditor

   Mike Thomson, Auditor

   Carol Ann Frost, Computer Assisted Audit Techniques

   Kimberly Beauchamp, Writer/Editor


For additional copies of this report, please contact Office of the Inspectors General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-03-00-10022.




Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022)
                        DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                  1
Management Analysis and Audit Program Support Staff, OFAM                       10
Inspector General                                                                1
Assistant Inspector General for Investigations                                   1
Assistant Inspector General for Executive Operations                             3
Assistant Inspector General for Audit                                            1
Deputy Assistant Inspector General for Audit                                     1
 Director, Systems Audit Division                                                1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders
                                                        25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
                 Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits
review the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts
short-term management and program evaluations focused on issues of concern to SSA,
Congress, and the general public. Evaluations often focus on identifying and recommending
ways to prevent and minimize program fraud and inefficiency.

                                Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security;
and the coordination of budget, procurement, telecommunications, facilities and equipment,
and human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to the
same rigorous standards that we expect from SSA, as well as conducting investigations of
OIG employees, when necessary. Finally, OEO administers OIG’s public affairs, media, and
interagency activities, coordinates responses to Congressional requests for information, and
also communicates OIG’s planned and current activities and their results to the
Commissioner and Congress.


                                 Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to
fraud, waste, abuse, and mismanagement of SSA programs and operations. This includes
wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters, representative
payees, third parties, and by SSA employees in the performance of their duties. OI also
conducts joint investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector
General on various matters, including: 1) statutes, regulations, legislation, and policy
directives governing the administration of SSA’s programs; 2) investigative procedures and
techniques; and 3) legal implications and conclusions to be drawn from audit and
investigative material produced by the OIG. The Counsel’s office also administers the civil
monetary penalty program.
